APRIL 30, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




NASA’S USE OF RESEARCH ANNOUNCEMENT AWARDS
         FOR AERONAUTICS RESEARCH




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-011 (ASSIGNMENT NO. A-11-013-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ARMD         Aeronautics Research Mission Directorate
FAR          Federal Acquisition Regulation
NRA          NASA Research Announcement
OMB          Office of Management and Budget


                                                        REPORT NO. IG-12-011
APRIL 30, 2012




                                                                                              OVERVIEW

                                NASA’S USE OF
                      RESEARCH ANNOUNCEMENT AWARDS FOR
                            AERONAUTICS RESEARCH

                                                                                                The Issue

  NASA’s three Mission Directorates – Science, Human Exploration and Operations, and
  Aeronautics Research – support their research, development, and education efforts by
  awarding contracts, grants, and cooperative agreements through NASA Research
  Announcements (NRAs). 1 NASA’s Federal Acquisition Regulation (FAR) Supplement
  defines an NRA as a solicitation for proposals that announces research interests in
  support of NASA programs and provides a formal mechanism for offerors to submit
  competitive research ideas. 2 NASA has used NRA awards to support human and robotic
  space missions, space observation and studies of the Earth and its climate, aeronautics
  research, and education and public outreach. From 2006 to 2010, NASA spent
  approximately $1.3 billion on NRA awards across all its Mission Directorates.

  The Aeronautics Research Mission Directorate (ARMD) performs research to increase
  the capacity, efficiency, and flexibility of our national airspace and to address
  aeronautical noise, emissions, performance, and safety challenges. From May 2006
  through January 2011, ARMD funded 447 NRA awards valued at $434.7 million –
  approximately one-third of the amount spent by NASA on NRA awards – to advance the
  Mission Directorate’s aeronautics research and development goals. 3 Approximately
  $34.4 million was funded by the American Recovery and Reinvestment Act of 2009
  1
      FAR Subpart 2.1 defines a contract as a mutually binding legal relationship that obligates the seller to
      furnish goods or services and the Government to pay for them. According to NASA’s Grants and
      Cooperative Agreement Handbook, a grant is used to accomplish a NASA objective through stimulating
      or supporting the acquisition of knowledge or attempting to determine the potential of scientific
      discoveries or improvements in technology, materials, processes, methods, devices, or techniques and
      advance the state of the art. According to 31 USC 6101, grants are distinguished from contracts in that
      grants provide financial assistance to the recipient to conduct a fairly autonomous program; contracts
      involve acquisition. A cooperative agreement is used when (1) the principal purpose is the transfer of
      anything of value to the recipient to accomplish an activity that has a public purpose and (2) NASA
      anticipates substantial involvement between the Agency and the recipient during performance of the
      activity. Grants are distinguished from cooperative agreements in that substantial involvement is not
      expected between NASA and the recipient when carrying out the activity.
  2
      NASA FAR Supplement 1835.016-71, “NASA Research Announcements.” An NRA differs from a
      Request for Proposals, which contains a statement of work or specification to which the proposer
      responds.
  3
      For comparison, the Science Mission Directorate annually makes over 1,000 NRA awards, primarily in
      the form of grants, totaling approximately $200 million per year (less than 5 percent of the Directorate’s
      annual budget).



REPORT NO. IG-12-011
                                                                                                            OVERVIEW



     (Recovery Act). For future years, ARMD plans an annual funding level of $75 million
     for NRA awards.

     NASA FAR Supplement 1835.016-71, “NASA Research Announcements,” defines an
     NRA as a solicitation that announces research interests in support of NASA’s programs
     and provides a formal mechanism for corporations, universities, and research institutions
     to submit competitive project ideas. For example, a 2007 NRA solicitation funded
     research for simulation and testing of weather concepts that NASA will use in developing
     the Next Generation Air Transportation system. Another award under a 2006 solicitation
     funded research to develop concepts and computer code for the organization of airspace
     and changing airspace configurations for Next Generation Air Transportation system
     operations. NRA awards are typically for a 3-year period, but can be shorter or longer as
     needed.

     We initiated this audit to examine whether the research funded by NRA awards,
     including awards funded by the Recovery Act, advanced NASA’s aeronautics research
     goals and whether award costs were allowable and properly supported.

     We reviewed documents from awards made by Ames Research Center, Dryden Flight
     Research Center, Glenn Research Center, Langley Research Center, and the NASA
     Shared Services Center. We selected a random sample of 43 awards between May 2006
     and January 2011, including 7 Recovery Act–funded awards, with a total value of
     $50.9 million. We assessed 18 of these awards, including 4 funded by the Recovery Act,
     to determine whether technical results advanced NASA’s aeronautics research, and we
     reviewed all 43 for cost allowability and support. Details of the audit’s scope and
     methodology are in Appendix A.

     Results

     We found that NASA’s aeronautics-related NRA awards, including awards funded by the
     Recovery Act, advanced the aeronautics research goals established by NASA.
     Specifically, the awards aligned with one or more goals set forth in ARMD project plans
     and, according to NASA technical experts, expanded the knowledge needed to advance
     those goals. However, we found that 18 of the 43 awards we reviewed (42 percent)
     contained approximately $2.4 million in questioned costs: $22,114 in unallowable fees
     and $2,405,635 in unsupported costs. 4 Based on our sample results, we estimate that
     ARMD’s 447 NRA awards during this 5-year period contained $25.2 million in
     unallowable or unsupported costs. Moreover, we project that by addressing the
     deficiencies we identified NASA could avoid awarding approximately $3.6 million in
     unallowable and/or unsupported costs annually in ARMD NRA awards. 5


     4
         None of the 18 awards with questioned costs were funded by the Recovery Act.
     5
         See Appendix C for details of our calculations for questioned costs and funds put to better use.



ii                                                                                           REPORT NO. IG-12-011
OVERVIEW



  NRAs Advanced ARMD’s Research Goals. We found that NRA awards advanced
  NASA’s aeronautics research goals. Specifically, the awards we reviewed aligned with
  ARMD project goals within the Airspace System Program, Aviation Safety Program,
  Fundamental Aeronautics Program, and Integrated Systems Research Program. We
  considered an award to have advanced aeronautics research goals if it aligned with
  research goals contained in ARMD project plans and produced results in which
  (1) NASA received the product agreed to in the procurement instrument and (2) NASA
  officials stated that the product expanded the knowledge needed to advance research
  goals in ARMD project plans.

  We reviewed proposals for 18 awards, including 4 funded by the Recovery Act, and
  found that the proposals aligned with one or more research goals described in NASA
  project plans. 6 For example, ARMD’s Integrated Systems Research Program selected for
  award a proposal that will explore and mature unconventional aircraft designs with the
  potential to meet mid-term goals (5–10 years) for acceptable noise levels, fuel
  consumption, and nitrogen oxides emissions. This award aligned directly with the
  Mission Directorate’s goal to reduce noise levels and harmful emissions over the next
  20 years.

  In addition, we found that each of the awards reviewed produced products such as written
  progress and final technical reports, software, hardware, and conference papers that
  ARMD officials said will advance the Mission Directorate’s research goals. According
  to program officials, NRA awards have led to the development of sensors, computer
  codes and models, prototypes, and other products, including the following:

         •   A heat flux sensor and calibration technique that collects data on heat changes
             during high-temperature tests of advanced composite structures and thermal
             protection system panels. NASA officials said the Agency has successfully used
             two of these sensors to test body sections of a hypersonic vehicle. 7

         •   Computer code for predicting airflow over aircraft structures that NASA used on
             a Space Shuttle flight in March 2009.

         •   A prototype tool that directly supports research analyzing safety cases to verify
             and validate systems that will be used in the Next Generation Air Traffic
             Management System.

  Based on the findings for these 18 awards, we concluded that no further review of
  additional awards for alignment with project plans and goals was warranted.

  NRA Awards Contained Unallowable and Unsupported Costs. We found that 18 of
  the 43 awards we reviewed (42 percent) included costs that were not allowable or were

  6
      We took our sample for this aspect of the audit from our initial random sample of 43 awards.
  7
      A hypersonic vehicle is capable of reaching speeds greater than five times the speed of sound.



REPORT NO. IG-12-011                                                                                   iii
                                                                                                               OVERVIEW



     not adequately supported (see Appendix B for a breakdown by award recipient of the
     costs we questioned). 8 Allowable costs are costs that meet criteria for inclusion in the
     contract, grant, or cooperative agreement and are reasonable in amount. For a cost to be
     adequately supported, NASA must obtain and document sufficient supporting
     information to determine that the cost is allowable, reasonable, and complies with the
     terms of the contract.

     In our review of 43 awards, we identified the following unallowable or unsupported
     costs:

            •   Unallowable Fees. NASA awarded unallowable fees totaling $22,114 on 2 of the
                43 (5 percent) NRA awards we reviewed. In one case, The Pennsylvania State
                University (Penn State) proposed a $12,590 fee that is expressly forbidden by the
                NASA FAR Supplement. In the procurement file documentation, the contracting
                officer acknowledged the prohibition on paying fees to universities, but justified
                the fee in this case on the ground that the proposal came from Penn State’s
                Applied Research Laboratory rather than Penn State itself. The contracting
                officer asserted that the Laboratory is “functionally an independent arm of [Penn
                State] and, therefore, not subject to the FAR Supplement prohibition.” However,
                because NASA awarded the contract to Penn State and not the Laboratory, and
                because, as the contracting officer acknowledged in the Price Negotiation
                Memorandum, the Laboratory’s “financial and legal identity are inextricably
                woven to [Penn State], we question the allowability of the fee.

            •   Unsupported Tuition Costs. NASA awarded $589,895 on 12 of the 43
                (28 percent) NRA awards in our sample without obtaining sufficient supporting
                information to determine whether proposed tuition costs were allowable. Tuition
                costs are allowable only if they meet specific requirements of Office of
                Management and Budget (OMB) Circular A-21, “Cost Principles for Educational
                Institutions,” 2004, including whether “the costs proposed are reasonable for the
                work performed.” 9 The procurement files for these 12 awards contained no
                evidence that NASA procurement officials had assessed proposed tuition costs for
                reasonableness and compliance with the other requirements of OMB Circular A-
                21. For example, we found that NASA awarded Georgia Tech Research
                Corporation $26,208 to fund 100 percent of the tuition costs for two graduate
                students. However, the Corporation’s budget proposal did not identify the
                students’ degree programs or provide support for the amount of tuition proposed.
                Indeed, the technical proposal stated that the students would provide only

     8
         Of the 43 awards, 7 were Recovery Act–funded; of those 7, none contained questioned costs.
     9
         OMB Circular A-21, Section J.45, “Scholarships and student aid costs,” states that tuition costs are
         allowable provided that (1) the individual is conducting activities necessary to support the agreement;
         (2) tuition costs and support are in accordance with the institution’s policies; (3) the student is enrolled in
         a degree program and the program is related to the Federally sponsored research project; (4) the costs
         proposed are reasonable for the work performed; and (5) the institution similarly compensates students in
         other activities.



iv                                                                                              REPORT NO. IG-12-011
OVERVIEW



             one-third of their time and effort to the NASA-sponsored agreement. Despite this
             clear statement, there is no evidence that NASA procurement personnel
             considered whether this ratio was consistent with the educational institution’s
             policy, whether the institution similarly compensated students for other activities,
             or whether the proposed cost was otherwise reasonable for the work that the
             students were expected to perform.

         •   Other Unsupported Costs. NASA awarded $1,815,740 on 6 of the 43
             (14 percent) NRA awards in our sample without obtaining sufficient supporting
             information to determine that these costs were fair and reasonable. NASA policy
             establishes requirements for adequately documenting proposed costs, including a
             requirement for documentation of itemized budgets for all subcontracts. 10 In
             2007 NASA awarded a contract valued at $1,283,077 to a university, $962,753
             (75 percent) of which was for subcontract costs. However, the university did not
             provide, and NASA procurement officials did not request, itemized budgets
             detailing how the subcontract funds would be spent. Absent itemized budgets,
             procurement officials did not have a basis for assessing the reasonableness of
             proposed subcontract costs.

  We found that the NRA awards we examined contained unallowable and unsupported
  costs because procurement officials did not perform adequate due diligence in reviewing
  costs proposed by NRA awardees. Furthermore, NASA’s “Guidebook for Proposers
  Responding to a NASA Research Announcement (NRA) or Cooperative Agreement
  Notice (CAN),” January 2012, does not adequately address the documentation proposers
  should submit to support proposed tuition costs.

  Based on our statistical projections, we estimate that NASA awarded aeronautics-related
  NRA contracts and cooperative agreements that contained $25.2 million in unallowable
  and unsupported costs from May 2006 through January 2011. For future years, we
  estimate that by addressing the type of deficiencies we identified NASA could avoid
  awarding approximately $3.6 million of unallowable and/or unsupported costs annually
  in ARMD NRA awards.

                                                                            Management Action

  In an effort to ensure that all costs in NRA awards are allowable and properly supported,
  we recommended that the Assistant Administrator for Procurement provide additional
  training to NASA procurement personnel regarding the prohibition on fees to educational
  institutions and the requirement for documenting cost elements such as subcontracts and
  tuition for students. We also recommended that the Assistant Administrator revise the


  10
       The NASA policy requiring itemized budgets for subcontracts is found in the January 2006 edition of the
       Agency’s “Guidebook for Proposers Responding to a NASA Research Announcement (NRA),” section
       2.3.11(a), “Description of Required Budget Justification and Details.”



REPORT NO. IG-12-011                                                                                             v
                                                                                         OVERVIEW



     Guidebook for NRA Proposers to make clear the documentation required to support
     proposed student tuition costs.

     In response to a draft of this report, the Assistant Administrator for Procurement partially
     concurred with our recommendations, stating that he agrees with our findings regarding
     the lack of adequate documentation to support the analysis of award proposals and
     believes our review of the pre-award process will help NASA improve its internal
     controls. However, he took exception with some of the analysis and conclusions that led
     to our recommendations. Specifically, the Assistant Administrator stated that inadequate
     documentation and analysis of costs during the pre-award stage does not necessarily
     mean that NASA actually paid unallowable costs. Additionally, the Assistant
     Administrator stated that we mischaracterized NASA’s handling of the fee proposed by
     Penn State, pointing out that the contracting officer refused to make an award that
     included the fee and that the proposal was subsequently revised. He also asserted that
     extrapolating the questioned costs in the finding – in particular the Penn State fee – over
     the broader universe of NRA awards is unsupported.

     Our report makes no judgment on whether NASA actually paid unallowable or
     unsupported costs. Rather, we based our recommendations on the finding that
     procurement officials did not make sufficient efforts – prior to making an award – to
     obtain the support necessary to determine whether proposed costs were reasonable. As
     such, we based our monetary projections solely on the questioned costs found in our
     sample and extrapolated the results to illustrate the potential impact associated with
     procurement officials failing to conduct adequate pre-award analysis. Regarding the
     Penn State fee, we maintain that NASA awarded the contract without adequate support
     for the proposed cost elements. Specifically, the revised proposal increased labor (and
     associated fringe benefit costs) and travel costs by an amount equivalent to the
     unallowable fee, thereby retaining a total contract price of $200,000, and did not include
     an expanded scope of work justifying the increased labor and travel costs. Moreover, the
     $9,524 Penn State fee in question represents only 0.4 percent of the $2.4 million of
     questioned costs in our sample (see discussion on page 8).

     With regard to the specific recommendations, the Assistant Administrator stated that his
     office has developed and scheduled two training courses for cost and price analysis and
     will review and revise the annual Guidebook for NRA Proposers as needed to ensure that
     proposers provide the necessary documentation for procurement officials to determine the
     reasonableness of tuition costs. We find the Assistant Administrator’s proposed actions
     responsive to the intent of our recommendations and therefore we will close the
     recommendations upon completion and verification of the proposed actions.
     Management’s complete comments are reprinted in Appendix D.




vi                                                                           REPORT NO. IG-12-011
APRIL 30, 2012




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

  RESULTS
      NRA Awards Advanced ARMD’s Research Goals ______________ 4
      NRA Awards Contained Unallowable and Unsupported Costs____ 6

  APPENDIX A
      Scope and Methodology _______________________________ 13
      Review of Internal Controls ____________________________ 14
      Prior Coverage ______________________________________ 15

  APPENDIX B
      Review of Award Costs________________________________ 16

  APPENDIX C
      Sampling Methodology and Projection of Results ___________ 19

  APPENDIX D
      Management Comments ______________________________ 21

  APPENDIX E
      Report Distribution ___________________________________ 24




REPORT NO. IG-12-011
APRIL 30, 2012




                                                                                      INTRODUCTION


Background

  NASA’s three Mission Directorates – Science, Human Exploration and Operations, and
  Aeronautics Research – support their research, development, and education efforts by
  awarding contracts, grants, and cooperative agreements through NASA Research
  Announcements (NRAs). 11 NASA’s Federal Acquisition Regulation (FAR) Supplement
  defines an NRA as a solicitation for proposals that announces research interests in
  support of NASA programs and provides a formal mechanism for offerors to submit
  competitive research ideas. 12 NASA has used NRAs to support efforts in human and
  robotic space missions, space observation and studies of the Earth and its climate,
  aeronautics research, and education and public outreach. From 2006 to 2010, NASA
  spent approximately $1.3 billion on NRA awards by all its Mission Directorates.

  The Aeronautics Research Mission Directorate (ARMD) performs research to increase
  the capacity, efficiency, and flexibility of our national airspace and to address noise,
  emissions, efficiency, performance, and safety challenges. For the past 5 years, the
  ARMD Airspace Systems Program, Aviation Safety Program, Fundamental Aeronautics
  Program, and Integrated Systems Research Program have used NRA awards to
  (1) generate advanced research ideas that further NASA’s goals and objectives;
  (2) stimulate close collaboration among NASA researchers and NRA award recipients;
  and (3) supplement and enhance ARMD’s in-house capabilities.

  In 2006, the National Research Council reported that without input from academia and
  industry, NASA’s aeronautics research might suffer from a lack of specialized technical
  expertise, facilities, and capabilities. 13 Accordingly, the Council recommended that
  NASA establish a more balanced allocation of funding between in-house and external
  organizations.

  11
       A contract is a mutually binding legal relationship that obligates the seller to furnish goods or services
       and the Government to pay for them. A grant is used to accomplish a NASA objective through
       stimulating or supporting the acquisition of knowledge or attempting to determine the potential of
       scientific discoveries or improvements in technology, materials, processes, methods, devices, or
       techniques and advance the state of the art. Grants are distinguished from contracts in that grants provide
       financial assistance to the recipient to conduct a fairly autonomous program; contracts involve
       acquisition. A cooperative agreement is used when (1) the principal purpose is the transfer of anything
       of value to the recipient to accomplish an activity that has a public purpose and (2) NASA anticipates
       substantial involvement between the Agency and the recipient during performance of the activity. Grants
       are distinguished from cooperative agreements in that substantial involvement is not expected between
       NASA and the recipient when carrying out the activity.
  12
       NASA FAR Supplement 1835.016-71, “NASA Research Announcements.” An NRA differs from a
       Request for Proposals, which contains a statement of work or specification to which the proposer
       responds.
  13
       National Research Council, “Decadal Survey of Civil Aeronautics: Foundation for the Future,” 2006.


REPORT NO. IG-12-011                                                                                                 1
                                                                                                   INTRODUCTION



    In line with the Council’s recommendation, ARMD senior officials restructured ARMD’s
    programs and projects to focus on long-term, cutting-edge research. Consistent with this
    new focus, research would pursue lower technology readiness levels that generally do not
    involve the production of a prototype or include flight-testing. 14 In addition, ARMD
    committed to spending at least $50 million annually on contracts and cooperative
    agreements competitively selected through NRAs. ARMD issued its initial NRA
    solicitation in May 2006.

    From May 2006 through January 2011, ARMD funded 447 awards valued at
    $434.7 million – approximately 33 percent of the $1.3 billion that NASA spent on NRA
    awards – to advance the Mission Directorate’s aeronautics research and development
    goals. Approximately $34.4 million of the $434.7 million was funded by the American
    Recovery and Reinvestment Act of 2009 (Recovery Act). 15 For future years, ARMD
    plans an annual NRA funding level of $75 million.


NRA Process within ARMD

    ARMD administers NRA awards through a four-stage process: solicitation, evaluation
    and selection, award, and post-award administration. We describe each of these stages
    below:

           •   Solicitation: ARMD issues the NRA solicitation, which includes guidance
               regarding requirements and cost evaluation criteria for that program year.
               Generally, proposals are required to include a description of the offeror’s research
               idea and technical approach, identification of principal researchers, and a
               proposed budget.

           •   Evaluation and Selection: ARMD competitively evaluates proposals through a
               peer review process involving a panel of at least three reviewers with technical
               expertise in the area of the proposal. The evaluation considers the proposal’s
               overall scientific or technical merit, its innovative approaches, the proposer’s
               capabilities, and the capabilities of key personnel involved in the proposed
               research. Based on the panel’s evaluations, a NASA official selects proposals for
               award.

           •   Award: Based on the nature of the research, the contracting officer chooses the
               appropriate procurement instrument (contract or cooperative agreement),
               negotiates with the proposer, and finalizes the award. Agency policy permits the
               use of grants, but ARMD awarded only contracts and cooperative agreements for
    14
         Technology readiness level is a scale that measures the maturity of a technology ranging from 1 (basic
         technology research) to 9 (systems test, launch, and operations).
    15
         The Act stipulates that Recovery Act funds are to be used for technological advances in science and
         requires a significant level of transparency and accountability to ensure that funds are expended
         appropriately and to make information about expenditures readily available to the public.



2                                                                                         REPORT NO. IG-12-011
INTRODUCTION



              proposals selected through NRA solicitations during the period of our review.
              Awards are typically for a 3-year period of performance, but may be shorter or
              longer as needed.

      •       Post-Award Administration: During this period, NASA contracting and
              technical officers monitor recipient performance and process payments.

  The following chart illustrates the NRA process.

    Phase 1                        Phase 2                   Phase 3                   Phase 4

          • NASA                     • Proposals are           • The contracting          • The contracting
            Headquarters               competitively             officer chooses the        officer processes
            releases NRA               evaluated through         appropriate award          payments.
            solicitiation,             a peer review.            instrument and           • The contracting
            describing topics of     • NASA selecting            negotiates with            and technical
            interest to the            official uses those       the proposer (type         officers review
            Agency.                    evalautions to            of contract, cost,         performance.
          • ARMD issues                select proposals          and delivery
            applicable                 for award.                schedule).
            guidance.                                          • The contracting
                                                                 officer awards the
                                                                 instrument.




Objectives

  Our overall audit objective was to examine whether ARMD-funded NRAs advanced
  NASA’s aeronautics research goals and whether associated costs were allowable and
  properly supported. See Appendix A for details of the audit’s scope and methodology,
  our review of internal controls, and a list of prior coverage. See Appendix B for details
  about our sample and Appendix C for details about our sampling methodology and
  projection of results.




REPORT NO. IG-12-011                                                                                            3
                                                                                                          RESULTS




                                                   NRA AWARDS ADVANCED ARMD’S
                                                                RESEARCH GOALS

               We found that NRA awards advanced NASA’s aeronautics research goals.
               Specifically, the awards we reviewed aligned with ARMD project goals within the
               Airspace System Program, Aviation Safety Program, Fundamental Aeronautics
               Program, and Integrated Systems Research Program. We considered an award to
               have advanced aeronautics research goals if it aligned with research goals contained
               in ARMD project plans and produced results in which (1) NASA received the
               product agreed to in the procurement instrument and (2) NASA officials stated that
               the product expanded the knowledge needed to advance research goals in ARMD
               project plans.


Evaluation of NRA Awards Relative to ARMD Project Plans

    We selected 18 awards for review, including 4 funded by the Recovery Act. 16 We found
    that the proposals for all 18 awards aligned with one or more research goals described in
    NASA project plans. For example, ARMD’s Integrated Systems Research Program
    selected for award a proposal that will mature unconventional aircraft designs with the
    potential to meet mid-term goals (5–10 years) for acceptable noise levels, fuel
    consumption, and nitrogen oxides emissions. The project also proposed to develop a
    conceptual design for a subscale vehicle for flight tests. This award aligned directly with
    the Mission Directorate’s goal to reduce noise levels and harmful emissions over the next
    20 years. Similarly, one of the Recovery Act awards aligned with another goal to reduce
    some nitrogen oxides emissions by at least 75 percent below the current standard while
    simultaneously decreasing the amount of fuel an aircraft uses by 40 percent.

    In addition, we found that each of the awards reviewed produced products such as written
    progress and final technical reports, software, hardware, and conference papers that
    ARMD officials said will advance the Mission Directorate’s research goals. According
    to program officials, NRA awards have led to the development of sensors, computer
    codes and models, prototypes, and other products, including the following:

           •   A heat flux sensor and calibration technique that collects data on heat changes
               during high-temperature tests of advanced composite structures and thermal
               protection system panels. NASA officials stated that the Agency has successfully
               used two of these sensors to test body sections of a hypersonic vehicle. 17



    16
         We took our sample for this aspect of the audit from our initial random sample of 43 awards.
    17
         A hypersonic vehicle is capable of reaching speeds greater than five times the speed of sound.



4                                                                                          REPORT NO. IG-12-011
RESULTS



      •   Computer code for predicting airflow over aircraft structures that NASA used on
          a Space Shuttle flight in March 2009.

      •   Computer code to predict engine performance in an effort to achieve significant
          reductions in aircraft fuel consumption and noise.

      •   A prototype that, according to NASA technical personnel, shows potential for
          automating aspects of hazard analysis and contributes to the research goal of
          developing improved methods for articulating and implementing safety
          requirements.

      •   A prototype tool that directly supports research analyzing safety cases to verify
          and validate systems that will be used in the Next Generation Air Traffic
          Management System.

  Based on our findings for these 18 awards, we concluded that no further review of
  additional awards for alignment with project plans and goals was warranted.




REPORT NO. IG-12-011                                                                          5
                                                                                                               RESULTS




                                NRA AWARDS CONTAINED UNALLOWABLE AND
                                                   UNSUPPORTED COSTS

               Our review of a sample of NRA awards found 18 of 43 contained unallowable fees
               or unsupported tuition, subcontract, or equipment costs totaling approximately
               $2.4 million. Based on our sample results, we estimate that NASA awarded
               $25.2 million in unallowable or unsupported costs to NRA recipients from inception
               of ARMD’s NRA program in May 2006 through January 2011. This occurred
               because proposals did not contain the documentation required for procurement
               officials to determine whether proposed tuition costs were allowable and
               procurement officials did not perform adequate due diligence when reviewing
               proposed costs. By implementing the recommendations identified in this report, the
               Agency can avoid awarding unallowable and unsupported costs in ARMD NRA
               awards of approximately $3.6 million annually.


Federal and NASA Requirements for the Allowability of Costs

    FAR Requirements for Contracts. FAR 31.201-2, “Determining allowability,”
    provides that a cost is allowable only when it is reasonable, allocable, and conforms to
    generally accepted accounting principles and practices appropriate to the circumstances,
    the terms of the contract, and any limitations set forth in FAR Subpart 31.2. 18 A cost is
    reasonable if it does not exceed the amount that a prudent person would pay under similar
    circumstances in the conduct of competitive business and is allocable if it provides
    benefits or bears an equitable relationship to the award.

    FAR 1.602, “Contracting officers,” provides that “no contract shall be entered into unless
    the contracting officer ensures that all requirements of law, executive orders, regulations,
    and all other applicable procedures . . . have been met.” To ensure compliance with
    acquisition regulations, contracting officers must review proposed costs for allowability.

    Office of Management and Budget (OMB) Requirements for Grants, Contracts, and
    Other Agreements with Educational Institutions. OMB Circular A-21, “Cost
    Principles for Educational Institutions,” 2004, provides “principles for determining the
    costs applicable to research and development, training, and other sponsored work
    performed by colleges and universities under grants, contracts, and other agreements with
    the Federal Government. These agreements are referred to as sponsored agreements.” 19


    18
         FAR 31.201-4, “Determining allocability,” states that a “cost is allocable if it is assignable or chargeable
         to one or more cost objectives on the basis of relative benefits received or other equitable relationship.”
    19
         A sponsored agreement is any grant, contract, or other agreement between the institution and the Federal
         government.



6                                                                                            REPORT NO. IG-12-011
RESULTS



  Furthermore, Section J.45, “Scholarships and student aid costs,” states that

             a. Costs of scholarships, fellowships, and other programs of student aid are allowable
             only when the purpose of the sponsored agreement is to provide training to selected
             participants and the charge is approved by the sponsoring agency. However, tuition
             remission and other forms of compensation paid as, or in lieu of, wages to students
             performing necessary work are allowable provided that --

                 (1) The individual is conducting activities necessary to the sponsored agreement;

                  (2) Tuition remission and other support are provided in accordance with
             established educational institutional policy and consistently provided in a like manner
             to students in return for similar activities conducted in nonsponsored as well as
             sponsored activities; and

                  (3) During the academic period, the student is enrolled in an advanced degree
             program at the institution or affiliated institution and the activities of the student in
             relation to the Federally-sponsored research project are related to the degree program;

                 (4) the tuition or other payments are reasonable compensation for the work
             performed and are conditioned explicitly upon the performance of necessary work;
             and

                 (5) it is the institution’s practice to similarly compensate students in
             nonsponsored as well as sponsored activities.

             b. Charges for tuition remission and other forms of compensation paid to students as,
             or in lieu of, salaries and wages shall be subject to the reporting requirements
             stipulated in Section J.10, and shall be treated as direct or F&A [facilities and
             administrative] cost in accordance with the actual work being performed. Tuition
             remission may be charged on an average rate basis.

  NASA Requirements for all NRA Awards. NASA’s annual “Guidebook for Proposers
  Responding to A NASA Research Announcement (NRA) or Cooperative Agreement
  Notice (CAN),” (Guidebook for NRA Proposers) establishes specific Agency policies
  regarding the allowability of individual cost elements included in an NRA budget
  proposal. 20 The Guidebook also establishes documentation requirements for adequately
  supporting proposed cost elements.


NRA Awards Contained Unallowable and Unsupported Costs

  We found that approximately 42 percent of the NRA awards we reviewed (18 of 43)
  contained unallowable or unsupported costs, or both (see Appendix B for a breakdown by
  award recipient of the costs we questioned). 21


  20
       The January 2012 edition is located at
       http://www.hq.nasa.gov/office/procurement/nraguidebook/proposer2012.pdf (accessed April 27, 2012).
  21
       We found no unallowable or unsupported costs in the Recovery Act-funded awards we reviewed.



REPORT NO. IG-12-011                                                                                        7
                                                                                                           RESULTS



    Specifically, our review identified:

           •   unallowable fees ($22,114);

           •   unsupported tuition costs ($589,895); and

           •   other unsupported costs ($1,815,740).

    Unallowable Fees. In 2010, NASA awarded a $414,380 contract to Pennsylvania State
    University for work titled “High Fidelity CFD Analysis and Validation of Rotorcraft
    Gear Box Aerodynamics,” which included an unallowable fee of $12,590. In the Price
    Negotiation Memorandum, the contracting officer acknowledged the prohibition on
    paying such fees, but justified the fee in this case on the grounds that Penn State’s
    Applied Research Laboratory, as opposed to Penn State, had submitted the technical
    proposal. 22 The contracting officer asserted that the Laboratory is “functionally an
    independent arm of [Penn State] and, therefore, not subject to the FAR Supplement
    prohibition.”

    We believe the contracting officer’s rationale for allowing the fee is invalid for two
    reasons. First, NASA awarded the contract to Penn State, not the Laboratory. Second, as
    the contracting officer acknowledged in the Price Negotiation Memorandum, the
    Laboratory’s “financial and legal identity are inextricably woven to [Penn State].”
    Accordingly, we do not believe the Laboratory can properly be viewed as an independent
    entity.

    In another case, in 2008 NASA awarded a $200,000 contract to Penn State for work
    titled, “Rotorcraft Transmission Noise Path Model, Including Distributed Fluid Film
    Bearing Impedance Modeling.” The contract file contains correspondence showing that
    procurement officials determined that Penn State’s initial budget proposal included an
    unallowable fee of $9,524. However, rather than eliminating the fee and offering to pay
    Penn State $190,476 for the work, a NASA procurement official sent the following
    e-mail:

               If the fee you’ve proposed is really an overhead item, please provide us with a revised
               cost [budget] proposal that identifies it as overhead and we can proceed. We share
               your desire to get this effort awarded as soon as possible.

    In response to this e-mail, Penn State submitted a revised budget proposal that eliminated
    the fee but increased labor (and associated fringe benefit costs) and travel costs by an
    equivalent amount, thereby retaining a total contract price of $200,000. However, the
    revised proposal did not include an expanded scope of work justifying the increased labor
    and travel costs, and NASA awarded the contract without further review of the proposed

    22
         A Price Negotiation Memorandum is a required document in NASA procurement files. The NASA FAR
         Supplement states that the memorandum “serves as a detailed summary of: the technical, business,
         contractual, pricing (including price reasonableness), and other elements of the contract negotiated; and
         the methodology and rationale used in arriving at the final negotiated agreement.”



8                                                                                         REPORT NO. IG-12-011
RESULTS



  cost elements. Accordingly, it appears to us that Penn State reclassified the unallowable
  fee as labor and travel costs and that NASA accepted this reclassification without
  additional inquiry or a sufficient basis. NASA procurement officials acknowledged to us
  that the approaching end of the fiscal year and the need to obligate funds was a factor in
  their desire to award the contract expeditiously.

  Although we understand that NASA could not require Penn State to accept a lower
  contract price, we believe the Agency should have inquired further into the basis for the
  revised proposal to ensure that it was not simply paying the unallowable fee in another
  form. Accordingly, we question $9,524 of this NRA award.

  Unsupported Tuition Costs. NASA awarded $589,895 on 12 of the 43 (28 percent)
  NRA awards in our sample without sufficient information to determine that proposed
  tuition costs were allowable. Tuition costs are allowable only if they are reasonable in
  amount and meet all of the other specific requirements of OMB Circular A-21,
  Section J.45.

  For example, in 2006, NASA entered into a 3-year cooperative agreement worth
  $321,396 with the University of Rhode Island. The agreement included $56,926 to cover
  100 percent of the out-of-state tuition costs for one graduate student. However, the
  University’s budget proposal did not contain sufficient information to allow NASA
  procurement officials to determine whether the proposed tuition costs were allowable
  under Circular OMB Circular A-21. For example, the University did not identify the
  student’s degree program or provide a letter from the registrar or other documentary
  support for the tuition costs claimed, and NASA procurement officials did not request or
  otherwise obtain this information. Instead, procurement officials said they compared the
  proposed tuition costs to similar costs on two other NASA awards. However, the
  procurement file did not contain evidence of the comparison or a description of the
  results.

  In another example, in 2008, NASA awarded a cooperative agreement to the University
  of Cincinnati valued at $590,578 for work titled, “Computational Bleed Model for
  Supersonic Inlets.” The agreement included $73,832 to cover the in-state tuition costs of
  two graduate students. However, the University’s budget proposal did not identify the
  students’ degree programs or the percentage of effort the students would provide to the
  NASA-sponsored research agreement or provide support for the amount of tuition costs
  claimed, and NASA procurement officials did not request any additional supporting
  information from the University.

  In a final example, in 2007, NASA awarded a 3-year contract to Georgia Tech Research
  Corporation for work titled “Characterization of and Concepts for Metroplex
  Operations.” The award included $26,208 to fund 100 percent of the tuition costs for two
  graduate students. However, the technical proposal stated that the students would
  provide only one-third of their time and effort to the NASA-sponsored agreement.
  Moreover, the Corporation’s budget proposal did not identify the students’ degree
  programs or provide support for the proposed tuition costs, and there is no evidence that


REPORT NO. IG-12-011                                                                           9
                                                                                                          RESULTS



     NASA procurement personnel considered whether it was consistent with the
     Corporation’s policy and otherwise reasonable to charge full tuition costs for students
     who would only be dedicating one-third of their time to the NASA project.

     Other Unsupported Costs. NASA awarded $1,815,740 on 6 of the 43 (14 percent)
     NRA awards in our sample without obtaining sufficient supporting information to
     determine that these costs were fair and reasonable. 23 NASA policy establishes
     requirements for adequately documenting proposed costs. However, we found that
     ARMD awards did not consistently comply with this policy.

     For example, NASA policy requires itemized budgets for all subcontracts. 24 In 2007,
     NASA awarded a $1,283,077 contract to San Jose State University for work titled
     “Human Workload Fast-time Integration.” Of this amount, 75 percent or $962,753 was
     for subcontract costs. However, the State University did not provide, and NASA
     procurement officials did not request, itemized budgets detailing how the subcontract
     funds would be spent. Without these itemized budgets, procurement officials did not
     have a basis for assessing the reasonableness of proposed subcontract costs.

     In a separate matter in 2007, NASA awarded a $608,075 cooperative agreement to Tao of
     Systems Integration, Inc. Based on our review of the procurement file and discussion
     with the contracting officer, we found no evidence that procurement officials took
     appropriate steps to ensure that proposed costs were reasonable prior to making the
     award. Specifically, the procurement file did not contain a Price Negotiation
     Memorandum or other evidence that procurement officials reviewed specific cost
     elements. Instead, procurement officials relied on a brief cost evaluation performed by
     NASA technical personnel. According to the FAR, the contracting officer is responsible
     for evaluating the proposed price and for ensuring that the final agreed-to price is fair and
     reasonable. 25 In our opinion, the abbreviated cost evaluation performed by technical
     personnel was insufficient to determine reasonableness of individual cost elements.

     In another example, in 2010, NASA awarded a 2-year contract to Penn State valued at
     $414,380 for work titled “High Fidelity CFD Analysis and Validation of Rotorcraft Gear
     Box Aerodynamics.” The contract awarded equipment costs of $19,939 to acquire four
     identical rack mount servers. However, the contract file contained no evidence that
     procurement officials requested or otherwise obtained objective evidence supporting the
     amount of the proposed cost before NASA awarded the contract. Therefore, we
     questioned the cost of the four servers and associated indirect costs of $10,887.



     23
          One of the 10 awards without sufficient supporting information also contained an expressly unallowable
          contractor fee and was one of the two awards previously discussed.
     24
          The NASA policy requiring itemized budgets for subcontracts is found in the January 2006 edition of the
          Agency’s “Guidebook for Proposers Responding to a NASA Research Announcement (NRA),” section
          2.3.11(a), “Description of Required Budget Justification and Details.”
     25
          FAR 15.404-1, “Proposal analysis techniques.”



10                                                                                        REPORT NO. IG-12-011
RESULTS



  After we brought this issue to management’s attention, NASA procurement personnel
  verified the accuracy of the proposed equipment costs with the manufacturer. However,
  such post-award verification is not an adequate substitute for pre-award diligence and
  determination that proposed costs are supportable.


Conclusion

  NASA awarded contracts and cooperative agreements with unallowable and unsupported
  costs because procurement officials did not exercise adequate due diligence when
  reviewing proposed costs. Specifically, procurement officials did not obtain, review, and
  document sufficient evidence to provide a basis for assessing the reasonableness and thus
  the allowability of costs. Additionally, NASA has not described the documentation that
  proposers should submit to support proposed tuition costs in accordance with the
  requirements of OMB Circular A-21.

  We projected our sample results onto the universe of 447 ARMD NRA awards valued at
  $434.7 million for the 5-year review period. Based on that projection, we estimate that
  NASA awarded contracts and cooperative agreements containing $25.2 million in
  unallowable and unsupported costs from May 2006 through January 2011. Specifically,
  we estimate that NASA awarded NRA contracts and cooperative agreements containing:

         •   unallowable fees of $230,000;

         •   unsupported tuition costs of $6.1 million; and

         •   other unsupported costs of $18.9 million.

  We further estimate that NASA could avoid awarding approximately $3.6 million of
  unallowable and unsupported costs annually in ARMD NRA awards by addressing the
  deficiencies we found in our sample and taking steps to ensure that procurement officials
  exclude such unallowable and unsupported costs from future NRA awards. 26

  Details about questioned costs in our sample are in Appendix B. Details about our
  sampling methodology and projection of results are in Appendix C.




  26
       Our projection is based on ARMD’s plans for an annual funding level of $75 million for NRA awards.



REPORT NO. IG-12-011                                                                                        11
                                                                                          RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To help ensure that future NRA awards contain only allowable and supportable costs, we
made the following recommendations to the Assistant Administrator for Procurement:

Recommendation 1. Provide training to procurement personnel regarding the prohibition
on fees to educational institutions and the requirements for documenting cost elements such
as subcontracts and tuition. The training should specify appropriate corrective actions when
procurement personnel identify unallowable fees and ensure that procurement personnel
understand the need to have a reasonable basis for assessing the allowability of proposed
costs.

     Management’s Response. The Assistant Administrator partially concurred, stating that
     although he does not agree with portions of the analysis and conclusions that led to our
     recommendation, his office has scheduled training from April through July 2012 that will
     cover cost reasonableness determinations, documentation, and tools for analyzing
     proposed cost elements. As part of his response, the Assistant Administrator provided us
     slides of the planned training presentations.

     Evaluation of Management’s Response. Management’s actions meet the intent of the
     recommendation and therefore the recommendation is resolved. We reviewed the
     training slides and confirmed that the information covers analysis of fees, the prohibition
     on paying fees to educational institutions, and properly documenting analysis of each cost
     element, including subcontracts. Furthermore, management offered to add a discussion
     of the allowability rules contained in OMB Circular A-21 and FAR 31 if we thought it
     necessary. We will close the recommendation following the addition of this information
     and completion of the scheduled training.

Recommendation 2. Revise the annual Guidebook for NRA Proposers to require proposers
to submit the specific documentation needed to meet the tuition allowability requirements of
OMB Circular A-21, Section J.45.

     Management’s Response. The Assistant Administrator partially concurred. Although
     he does not agree with portions of the analysis and conclusions that led to the
     recommendation, he stated that his office will complete a review and make revisions to
     the Guidebook by February 2013 to ensure that procurement officials receive the proper
     documentation to determine whether proposed tuition costs comply with criteria in the
     OMB Circular.

     Evaluation of Management’s Response. Management’s proposed actions meet the
     intent of the recommendation and therefore the recommendation is resolved and will be
     closed upon completion and verification of the proposed actions.




12                                                                          REPORT NO. IG-12-011
APPENDIXES




                                                                                       APPENDIX A


Scope and Methodology

  We performed this audit from March 2011 through March 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on the objectives. We believe that the
  evidence obtained during this audit provides a reasonable basis for our findings and
  conclusions based on our objectives.

  We limited the scope of our review to the contract award and the post-award
  administration stages because we assessed them as the most vulnerable to fraud, waste,
  and abuse. We did not review the other stages.

  To meet our audit objectives, we selected a statistically determined sample of 43 ARMD
  NRA awards from inception of the program in May 2006 through January 31, 2011. The
  sample consisted of contracts and cooperative agreements that were awarded by Ames
  Research Center, Dryden Research Center, Glenn Research Center, Langley Research
  Center, and the NASA Shared Services Center. We reviewed the first 18 awards to
  determine whether awards advanced ARMD’s research goals and produced meaningful
  results. We found that 4 of the first 18 awards were funded by the Recovery Act. We
  reviewed those 4 awards to assess effective and economical fund use and compliance
  with Recovery Act requirements. 27 We reviewed all 43 awards for cost allowability.
  Details of the audit’s sampling methodology are provided in Appendix C.

  We considered an award to advance NASA’s research goals when (1) NASA received the
  deliverable agreed to in the procurement instrument and (2) NASA technical personnel
  found the deliverable expanded the knowledge needed to advance research goals set forth
  in ARMD project plans. For the 18 awards, we performed the following procedures:

         •   obtained project plans and milestones (if available) and interviewed technical
             personnel to understand the scope of research goals;

         •   interviewed technical personnel to confirm that NRA awards aligned with project
             plans’ research goals;

         •   compared research described in project plans with research described in awards;



  27
       Our sample of 43 awards included 7 that were funded by the Recovery Act, including these 4; we
       reviewed all 7 and found that none contained questioned costs.



REPORT NO. IG-12-011                                                                                    13
                                                                                                   APPENDIX A



            •   reviewed products, progress reports, and performance reports and interviewed
                NASA technical personnel who assessed performance; and

            •   corroborated testimony and personal observations with users, project officials,
                and independent sources.

     To assess whether ARMD spent Recovery Act funds effectively and economically, we
     reviewed the four Recovery Act-funded awards to determine whether:

            •   the awards met requirements for funded research stated in the Recovery Act;

            •   the awards advanced research goals defined in ARMD project plans; and

            •   the awards contained properly supported and allowable costs. 28

     To assess whether NASA awarded costs that were allowable and properly supported, we
     reviewed a statistically selected sample of 43 awards and performed the following
     procedures:

            •   reviewed regulations governing the allowability of costs, including the FAR,
                OMB Circulars, and NASA policies;

            •   interviewed ARMD management officials and Agency procurement officials to
                identify procedures for reviewing and awarding costs; and

            •   reviewed procurement files to assess whether costs were allowable and properly
                supported.

     Use of Computer-Processed Data. To meet our audit objectives, we relied on data
     obtained from ARMD’s NRA Award Tracking System as the basis for our audit
     sampling. To assess the reliability of the data, we compared information from the Award
     Tracking System to procurement records. We concluded that the data was sufficiently
     valid and reliable to support our audit conclusions.


Review of Internal Controls

     We assessed internal controls using guidance from OMB Circular A-123,
     “Management’s Responsibility for Internal Control,” December 21, 2004, and the
     Government Accountability Office’s “Standards for Internal Control in the Federal
     Government,” November 1999, and “Internal Control Management and Evaluation
     Tool,” August 2001. Circular A-123 defines five control standards and requires that
     management comply with those standards. The Evaluation Tool provides managers

     28
          We reviewed all 7 Recovery Act-funded awards to determine whether they contained properly supported
          and allowable costs.



14                                                                                     REPORT NO. IG-12-011
APPENDIX A



  guidance to implement the control standards and to determine whether improvements are
  needed.

  Our assessment of internal controls indicates that the control system gives management
  adequate assurance of effectively using NRA awards to advance aeronautics research
  goals. The assessment found no indicators of deficiencies in the control environment,
  risk assessment, information and communications, and monitoring mechanisms as they
  relate to NRA awards.

  However, we found a deficiency in control activities that are used to assess proposed
  costs. Specifically, control activities did not prevent the award of unallowable and
  unsupported costs. We discuss the deficiency in our report finding, “NRA Awards
  Contained Unallowable and Unsupported Costs.” Our recommendations, if implemented,
  will correct the identified deficiencies.


Prior Coverage

  During the last 5 years, neither the NASA Office of Inspector General nor the
  Government Accountability Office has issued a report concerning the use of NRAs.
  However, the National Research Council has issued two reports of particular relevance to
  the subject of this report:

  “NASA Aeronautics Research: An Assessment” (2008)

  “Decadal Survey of Civil Aeronautics: Foundation for the Future” (2006)




REPORT NO. IG-12-011                                                                         15
                                                                                APPENDIX B




                                                      REVIEW OF AWARD COSTS


                                                         Unsupported    Other      Total
Sample     NRA Award           Award       Unallowable
                                                           Tuition   Unsupported Questioned
 Item       Recipient          Total          Fees
                                                            Costs       Costs      Costs
           University Of
     1                        $1,527,072        -         $29,678         -          $29,678
             Tennessee
               Boeing
     2                         137,652          -             -           -             -
           Company, The
           University of
     3                         525,000          -          58,703a      4,485        63,188
             Minnesota
           Pennsylvania
     4                         200,000       $9,524           -           -           9,524
          State University
             Raytheon
     5    Intelligence and     866,021          -             -           -             -
            Information
               Pratt &
     6                         993,829          -             -           -             -
              Whitney
           University of
             Illinois at
     7                         645,559          -             -           -             -
              Urbana-
            Champaign
               Metron
     8                        1,549,855         -             -           -             -
           Aviation, Inc.
          Tao of Systems
     9                         608,075          -                      608,075-      608,075
          Integration, Inc.
           Pennsylvania
     10                        617,797          -          85,336                    85,336
          State University
           University of
     11                        590,578          -          73,832         -          73,832
             Cincinnati
               Metron
     12                       1,999,993         -             -           -             -
           Aviation, Inc.
           University of
     13                        98,415           -             -           -             -
           Massachusetts
          Ohio Aerospace
     14                        235,331          -             -           -             -
              Institute
     15     Boeing Co.         867,437          -             -           -             -
             Lockheed
     16                       2,987,645         -             -           -             -
            Martin Corp.
              General
     17                       6,486,900         -             -           -             -
              Electric


16                                                                   REPORT NO. IG-12-011
APPENDIX B



                                                      Unsupported    Other      Total
Sample    NRA Award          Award      Unallowable
                                                        Tuition   Unsupported Questioned
 Item      Recipient         Total         Fees
                                                         Costs       Costs      Costs
          University of
  18                        697,825          -          57,517                  57,517
            Michigan
            Intelligent
  19       Automation,      360,000          -          9,209                    9,209
                Inc.
              Pratt &
  20                        7,354,981        -            -            -           -
             Whitney
          Georgia Tech
  21                        1,698,174        -          26,208                  26,208
         Research Corp.
          University of
  22                        321,396          -          56,926         -        56,926
          Rhode Island
  23       Sensis Corp.     1,208,024        -            -            -           -
          San Jose State
  24                        1,283,077        -                      962,753     962,753
            University
         Ball Aerospace
  25     & Technologies     481,229          -                     148,145b     148,145
               Corp.
             Materials
  26       Research &       799,993          -            -            -           -
           Design Inc.
  27     Ohio University    265,215          -                      61,456c     61,456
          University of
  28                        285,392          -            -            -           -
            Oklahoma
          Pennsylvania
  29                        670,929          -          98,036                  98,036
         State University
          Pennsylvania
  30                        284,461          -          26,951                  26,951
         State University
          Virginia Tech
  31                         8,639           -            -            -           -
            University
             Seagull
  32       Technology,      2,109,740        -            -            -           -
                Inc.
             Northrup
            Grumman
  33                        2,635,347        -            -            -           -
             Systems
           Corporation
          University Of
  34                        657,000          -          51,566         -        51,566
         Texas at Austin
          University of
  35                        256,000          -          15,933                  15,933
            Minnesota



REPORT NO. IG-12-011                                                              17
                                                                                                       APPENDIX B



                                                                         Unsupported    Other      Total
Sample          NRA Award               Award          Unallowable
                                                                           Tuition   Unsupported Questioned
 Item            Recipient              Total             Fees
                                                                            Costs       Costs      Costs
                   Brown
     36                          330,000                      -                 -                  -                -
                 University
               Massachusetts
     37          Institute of   1,690,359                     -                 -                  -                -
                 Technology
                  Airborne
               Systems North
     38                          250,000                      -                 -                  -                -
              America of CA,
                     Inc.
                University of
     39                          387,827                      -                 -                  -                -
                  Alabama
                   Krestrel
     40          Technology      525,150                      -                 -                  -                -
                    LLC
                  Research
     41           Triangle       600,528                      -                 -                  -                -
                  Institute
                 Honeywell
     42         International   4,379,195                     -                 -                  -                -
                     Inc.
                Pennsylvania
     43                          414,380                  12,590                                30,826d           43,416
              State University
              Total            $50,892,020               $22,114           $589,895            $1,815,740    $2,427,749
a
    Includes unsupported tuition costs of $58,703 and applicable indirect costs of $1,485 associated with Other
    Unsupported Costs of $3,000.
b
    Includes unsupported contract costs of $110,000 and applicable indirect costs and profit of $38,145.
c
    Includes unsupported clerical costs of $41,807 and applicable indirect costs of $19,649.
d
    Includes unsupported equipment costs of $19,939 and applicable indirect costs of $10,887.




18                                                                                        REPORT NO. IG-12-011
APPENDIX C




                                                        SAMPLING METHODOLOGY AND
                                                            PROJECTION OF RESULTS

  For our audit, we selected a simple random sample of 43 ARMD NRA awards from the
  447 awarded since the program’s inception in May 2006 through January 31, 2011. Our
  sample of 43 NRA awards included 7 that were funded by the Recovery Act.

  NRA Awards Advanced Goals. From our sample of 43 awards, we selected a subset of
  18 awards, which included 4 of the 7 Recovery Act-funded awards, for our initial audit
  work. Our review of this subset was sufficient to determine that NASA’s aeronautics-
  related NRA awards, including awards funded by the Recovery Act, advanced the
  aeronautics research goals established by NASA (all of the 18 awards in that sample
  advanced ARMD’s goals). Therefore, we did not review the other 25 NRA awards in our
  random sample for technical merit.

  Questioned Costs in NRA Awards. We reviewed all 43 NRA awards, valued at
  $50,892,020, for questioned costs. We found that 18 NRA awards (42 percent of
  43 awards) contained unallowable and unsupported costs of $2,427,749 (4.8 percent of
  $50.9 million). 29 Our analysis of the 43 statistically selected NRA awards from the total
  447 awarded provides us the ability to make the following projections.

         Number of Awards with Questioned Costs. We are 80 percent confident that
  between 146 and 229 of the 447 NRA awards contained questioned costs (between
  33 and 51 percent), with the mean being 187 awards. 30

         Amount of Questioned Costs. We are 80 percent confident that the dollar value
  of questioned costs contained in the 447 NRA awards, valued at $434.7 million, is
  between $11 million and $39.4 million, with the mean being $25.2 million. 31




  29
       See Appendix B for a breakdown of questioned costs in our sample by award.
  30
       Statistical attribute projection, lower bound 146 of 447 NRA awards, upper bound 229 of 447 NRA
       awards.
  31
       Statistical variable projection, lower bound $11,045,985 of $434,744,789 NRA award dollars, upper
       bound $39,428,610 of $434,744,789 NRA award dollars.



REPORT NO. IG-12-011                                                                                       19
                                                                                   APPENDIX C



            Future Years. We estimate that NASA could avoid awarding approximately
     $3.6 million of unallowable and unsupported costs annually in ARMD NRA awards by
     addressing the type of deficiencies we found in our sample. We obtained our estimate by
     applying the 4.8 percent of questioned costs in our sample to ARMD’s $75 million
     annual NRA funding level as follows:

             ARMD’s annual NRA funding level                         $75,000,000
             Multiplied by percent of questioned costs in sample       x   0.048
             Estimated annual savings                                 $3,600,000




20                                                                       REPORT NO. IG-12-011
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-12-011                         21
              APPENDIX D




22   REPORT NO. IG-12-011
APPENDIX D




REPORT NO. IG-12-011   23
                                                                               APPENDIX E




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for Aeronautics Research
     Assistant Administrator for Procurement
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Ames Research Center
     Director, Dryden Flight Research Center
     Director, Glenn Research Center
     Director, Langley Research Center
     Executive Director, NASA Shared Services Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




24                                                                    REPORT NO. IG-12-011
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Nora Thompson, Project Manager
   Jobenia Odum, Management Analyst
   James Pearce, Auditor
   Robert Rose, Auditor
   Arnold Pettis, Data Mining, Statistician, Application Developer
   Frank Mazurek, Legal Counsel




REPORT NO. IG-12-011                                                         25
                                                                                        APRIL 30, 2012
                                                                        REPORT No. IG-12-011




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
